IN THE
Supreme Court of the United States

 

No. 19-508

 

AMG CaPITAL MANAGEMENT, LLC; BLACK CREEK
CAPITAL CORPORATION; BROADMOOR CAPITAL
PARTNERS, LLC; LEVEL 5 Motorsports, LLC;
Scorr A. TUCKER; PARK 269 LLC; AND Kim C. TUCKER,

Petitioners,
Vv.

FEDERAL TRADE COMMISSION,
Respondent.

 

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

 

CERTIFICATE OF SERVICE

I hereby certify that on this 23rd day of June, 2020, I caused three copies of the
Supplemental Brief for Petitioners AMG Capital Management, LLG, et al., to be served
on the counsel of record as follows:

By overnight delivery and email to:

Imad Dean Abyad Noel Francisco

Theodore P. Metzler Solicitor General

FEDERAL TRADE COMMISSION U.S. DEPARTMENT OF JUSTICE
600 Pennsylvania Avenue, NW 950 Pennsylvania Avenue, NW
Washington, D.C. 20580 Room 5616

(202) 326-3502 Washington, D.C. 20530-0001
iabyad@fte.gov (202) 514-2203
tmetzler@ftc.gov SupremeCtBriefs@usdoj.gov

Counsel for Respondent Counsel for Respondent
T hereby certify that all parties required to be served have been served. I declare
under penalty of perjury that the foregoing is true and correct.

Executed on June 23, 2020.

 

600 New ‘Hampshire Ave., NW
Washington, D.C. 20037

(202) 556-2000
jlamken@mololamken.com

Counsel for Petitioners
